January 16, 2009

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2008 Postal Service Financial Statements
         Audit – Washington, D.C., Headquarters (Report Number FT-AR-09-007)

This report presents the results of our audit of the fiscal year (FY) 2008 Postal Service
financial statements – Washington, D.C., Headquarters (Project Number
08BM004FT000). The Postal Reorganization Act of 1970, as amended, requires annual
audits of the Postal Service’s financial statements. We conducted this audit in support
of the independent public accounting (IPA) firm’s overall audit opinion on the Postal
Service’s financial statements. This audit addresses financial risk. See Appendix A for
additional information about this audit.

Conclusion

During our audit at the Washington, D.C., Headquarters, we noted:

    •    Financial accounting policies and procedures provided for an adequate internal
         control structure and conformed with accounting principles generally accepted in
         the U.S.

    •    Accounting transactions at headquarters1 affecting general ledger (GL) account
         balances were stated in accordance with accounting principles generally
         accepted in the U.S.

    •    GL account balances for unemployment liability and expense conformed to the
         general classification of accounts on a basis consistent with that of the previous
         year.

    •    The Postal Service complied with laws and regulations that have a direct and
         material effect on the financial statements.

    •    No adjustments were proposed.

    •    We identified a control deficiency regarding manual journal voucher processing.

1
 The U.S. Postal Service Office of Inspector General (OIG) and the IPA coordinate testing and review of significant
headquarters accounts and manual journal vouchers (JV).
Fiscal Year 2008 Postal Service Financial                                                    FT-AR-09-007
 Statements Audit – Washington, D.C., Headquarters


         This item was not significant to the financial statements and did not affect the
         overall adequacy of internal controls.

Manual Journal Voucher Processing

Management did not always maintain adequate controls over JV preparation, approval,
and review. Of the 415 manual JVs reviewed, we found 16 (with entries totaling
approximately $571 million) that had internal control deficiencies. In our previous audit,2
we identified the same or similar internal control issues within this process.
Management reiterated the JV internal control procedures to all applicable personnel in
January 2008. However, the table below shows that in addition to the two newly
identified issues (yellow shading), we found management had still not resolved two of
the six previously reported issues (gray shading).3 See Appendix B for manual JV
details.

            Timeframe of JV                                                                           Instances In
                                                           Internal Control Issue
Qtr 1      Qtr 2     Qtr 3      Qtr 4     Total                                                         FY 2007

    --       --         --        1          1       No evidence of “entered by”                              --
                                                     Staff members approved JVs
    --       1          --        7          8                                                                --
                                                     their managers prepared
    --       2          --        --         2       Some or all support missing                              5
                                                     No evidence of final approval
                                                     put into the Journal Entry
    4        1          --        --         5                                                                1
                                                     Vehicle (JEV)4 or posted to the
                                                     GL

Postal Service policy5 states accounting practices at headquarters are expected to be
consistent with general fundamental internal control principles, including proper
explanation, support, and approval of JVs. Also, Corporate Financial Reporting (CFR)
has informal procedures over JV processing.




2
  Fiscal Year 2007 Postal Service Financial Statement Audit – Washington, D.C., Headquarters (Report Number
FT-AR-08-006, dated February 8, 2008).
3
  Control deficiencies identified in FY 2007 that we did not identify again in FY 2008 were (1) preparer not identified,
(2) no evidence of approval, (3) no evidence of review, and (4) JV amount differed from amount stated in supporting
documents by $100.
4
  The JEV application provides a method for entering JVs into the General Ledger Accounting and Financial
Reporting System. The application allows users to create, save, edit, and approve or reject manual JVs.
5
  Handbook F-1, Accounting and Reporting Policy, dated July 2008.




                                                            2
Fiscal Year 2008 Postal Service Financial                             FT-AR-09-007
 Statements Audit – Washington, D.C., Headquarters


We were not able to identify a primary cause for the various errors. However, it appears
as though human error, as well as inadequate oversight, continue to be contributing
factors. This situation increases the risk of misstated financial information in the GL.
See Appendix C for our detailed analysis of this issue.

We recommend the Vice President, Controller, direct the Manager, Corporate
Accounting, to:

1. Develop formal written procedures for manual journal voucher processing and
   distribute to all applicable personnel.

Management’s Comments

Management agreed a formally documented policy is a sound practice. A formal written
policy will be developed and distributed by June 30, 2009. This will include policy
requiring the JV approver to be senior to the preparer.

Management stated all of the manual JVs tested during the audit were proper and
booked correctly and, although some JVs were reviewed by persons at levels junior to
the preparer, there was no evidence any control procedures were not properly
performed – only that documentation of the performance of these controls was
incomplete. Management further asserted it is inappropriate for the OIG to imply
controls are not in place and there is increased risk of misstated financial statements.
They said this implication fails to acknowledge the existence of compensating controls,
including senior management’s review of monthly financial reports that serve to mitigate
significant potential errors that would occur in preparing manual JVs.

See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report. Management
agreed with the intent of the recommendation and plans to develop and distribute formal
procedures by June 30, 2009.

We acknowledge the manual JVs tested during the audit were proper and booked
correctly. However, we still maintain there was inadequate support for the two JVs. We
do not view our statement and conclusion on controls as contradictory. The intent of the
statement regarding “. . . internal controls not in place. . .” is to show, in general, the
potential effect when internal controls are not in place and effective. We do
acknowledge the existence of compensating controls; however, our focus was to
highlight deficiencies at this control point in the overall process.




                                                     3
Fiscal Year 2008 Postal Service Financial                                             FT-AR-09-007
 Statements Audit – Washington, D.C., Headquarters


Observation

We observed the following issues during our JV review that were not material to the
overall financial statements and did not affect the overall adequacy of internal controls
over JV processing. We observed these same issues during FY 2007.6 We found
significant improvement with one of the issues identified, as shown in the table below.

                 JV Entry                        Number of Instances Number of Instances
              Process Issue                         in FY 2008          in FY 2007
    Inconsistent Evidence of Approval
    for JVs that were Prepared and                            2                              14
    Approved by Another Office
    “Approver” and “Entered By” was
                                                              3                               2
    the Same Official

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: H. Glen Walker
    Vincent H. DeVito, Jr.
   Stephen J. Nickerson
   Katherine S. Banks




6
  In FY 2007, we also observed two instances where JV amounts differed from control sheets. However, we did not
identify any instances during FY 2008.




                                                       4
Fiscal Year 2008 Postal Service Financial                             FT-AR-09-007
 Statements Audit – Washington, D.C., Headquarters


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

U.S. Postal Service Headquarters Finance establishes accounting policies and provides
guidelines for recording and reporting Postal Service financial transactions. Internal
control and reporting systems have been created to ensure management and the public
receive meaningful financial information in accordance with generally accepted
accounting principles. We conducted this audit in support of the IPA’s overall audit
opinion on the Postal Service’s financial statements.

We will issue separate financial statements audit reports for the Eagan, MN; San Mateo,
CA; and St. Louis, MO, Information Technology and Accounting Service Centers
(IT/ASCs). Further, in addition to the overall opinion on the Postal Service's financial
statements, the IPA, contracted by the Board of Governors to express an opinion on the
financial statements, will issue separate reports on the Postal Service's internal controls
and compliance with laws and regulations. The OIG will also issue a separate report for
the audit of the FY 2008 information system controls at the Eagan, San Mateo, and St.
Louis IT/ASCs; and the Raleigh, NC, Information Technology Service Center.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:

   •   The financial accounting policies and procedures provide for an adequate
       internal control structure and comply with accounting principles generally
       accepted in the U.S.

   •   Accounting transactions at headquarters impacting the GL account balances for
       assets, liabilities, equity, income, and expenses of the Postal Service are fairly
       stated in accordance with accounting principles generally accepted in the U.S.

   •   GL account balances conform to the general classification of accounts of the
       Postal Service on a basis consistent with that of the previous year.

   •   The Postal Service complies with laws and regulations that have a material and
       direct effect on the financial statements as a whole.

To accomplish our objectives, we conducted fieldwork from December 2007 through
November 2008. We have a memorandum of understanding with the IPA regarding our
responsibilities for testing and reviewing internal controls and processes and significant
headquarters accounts (cash, investments, workers compensation, and unemployment




                                                     5
Fiscal Year 2008 Postal Service Financial                                                  FT-AR-09-007
 Statements Audit – Washington, D.C., Headquarters


liability), manual JVs,7 and laws and regulations. Further, we verified the Board of
Governors’ travel and miscellaneous expenses totaling $116,241 and external
professional fees totaling $6,703; and tested and accepted officers’ travel and
representation expenses totaling about $1.2 million. We are issuing separate reports
for our audits of the FY 2008 Board of Governors’ travel and miscellaneous expenses
and of the FY 2008 officers’ travel and representation expenses.

We conducted this audit from December 2007 through January 2009 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to limit audit risk to
a low level that is, in our professional judgment, appropriate for supporting the overall
audit opinion on the financial statements. Those standards also require us to consider
the results of previous engagements and follow up on known significant findings and
recommendations that directly relate to the objectives of the audit.

An audit also includes obtaining a sufficient understanding of internal control to plan the
audit and to determine the nature, timing, and extent of audit procedures. We
supported the IPA in obtaining reasonable assurance about whether the financial
statements are free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with generally
accepted government auditing standards may not detect a material misstatement.
However, the IPA and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We
discussed our observations and conclusions with management on December 15, 2008,
and included their comments where appropriate.

We relied on computer-generated data from several Postal Service financial systems,
including:

    •    eTravel System
    •    Chase Insight
    •    Workers’ Compensation Master File
    •    Accounting Data Mart (ADM)

We performed specific internal control and transaction tests on these systems’ data, to
include tracing selected financial information to supporting source records. For
example, we tested the reliability of the Workers' Compensation Master File by
comparing the system’s data to a random sample of 60 case files.



7
  Statement on Auditing Standards (SAS) No. 99, Consideration of Fraud in a Financial Statement Audit, requires
auditors to perform certain tasks to address the risk of management override of internal control. To address such
situations, SAS No. 99 requires auditors to test the appropriateness of journal entries recorded in the GL and other
adjustments.




                                                          6
    Fiscal Year 2008 Postal Service Financial                                      FT-AR-09-007
     Statements Audit – Washington, D.C., Headquarters


PRIOR AUDIT COVERAGE

                      Report          Final Report           Monetary
  Report Title        Number              Date                Impact            Report Results
 Fiscal Year       FT-AR-08-006           2/8/08               N/A      We identified a control deficiency
 2007 Postal                                                            regarding manual JV processing.
 Service                                                                We recommended management
 Financial                                                              reiterate JV internal control
 Statements                                                             procedures to all applicable
 Audit –                                                                personnel, and management did
 Washington,                                                            so in January 2008. However, we
 D.C.,                                                                  continue to find the same or
 Headquarters                                                           similar issues. See the “Manual
                                                                        Journal Voucher Processing”
                                                                        section of this report.
 Fiscal Year       FT-AR-07-004           12/7/06              N/A      We did not report any findings or
 2006 Postal                                                            provide any recommendations.
 Service
 Financial
 Statements
 Audit –
 Washington,
 D.C.,
 Headquarters
 Fiscal Year       FT-AR-06-002          11/16/05              N/A      We did not report any findings or
 2005 Postal                                                            provide any recommendations.
 Service
 Financial
 Statements
 Audit –
 Washington,
 D.C.,
 Headquarters


    For all 3 years, we found management’s financial accounting policies and procedures
    conformed to accounting principles generally accepted in the U.S. and provided for an
    adequate internal control structure. In addition, GL account balances for investments,
    unemployment compensation, and Governors’ and officers’ travel and expenses were
    stated in the national trial balance in accordance with accounting principles generally
    accepted in the U.S. Further, we did not identify any instances of noncompliance with
    laws and regulations that have a direct and material effect on the financial statements.




                                                         7
Fiscal Year 2008 Postal Service Financial                                             FT-AR-09-007
 Statements Audit – Washington, D.C., Headquarters


                  APPENDIX B: MANUAL JOURNAL VOUCHER DETAILS

                         JV#                 Month                   JV Amount

                 No evidence of (1) final approval signature, (2) input into JEV form, or (3)
                 staging for posting to the Xxxxxx XX8

                 1       117.0             Dec. 2007              $149,676,099
                 2       957.6             Dec. 2007                 8,195,822
                 3       958.1             Dec. 2007                14,995,468
                 4       964.0             Dec. 2007                 3,000,000
                 5       965.9             March 2008               45,000,000
                                                                  $220,867,389

                 Staff members approved JVs prepared by their managers

                 1       958.4             March 2008              $49,000,000
                 2       957.5             July 2008                 5,270,000
                 3       959.2             July 2008                 8,500,000
                 4       959.6             July 2008                 7,600,000
                 5       956.2             Aug. 2008               146,100,000
                 6       957.0             Aug. 2008                 4,300,000
                 7       958.4             Aug. 2008                 5,270,000
                 8       960.0             Aug. 2008                 7,400,000
                                                                  $233,440,000

                 Some or all support missing

                 1       960.2             Feb. 2008               $60,000,000
                 2       960.7             Feb. 2008                40,000,000
                                                                  $100,000,000

                 No evidence of JV “entered by”

                 1       964.4             Sept. 2008            $16,817,658
                 __                                           ______________
                 16                                             $571,125,047




8
 Xxx xxxxxx xxxxxxxxxx xxxxx xxx XXX xxxxx xx xxxxxxx xxx xxxxxxx xx xxx xx xxx xxxx xxxxxx “x” xx xxx xx. xxxxx
xxx xx xxxxxxxx xx xxx “x.”




                                                       8
Fiscal Year 2008 Postal Service Financial                                                  FT-AR-09-007
 Statements Audit – Washington, D.C., Headquarters


                                 APPENDIX C: DETAILED ANALYSIS

Internal controls over manual JVs processed by CFR were generally adequate and
served a legitimate business purpose. However, CFR did not always comply with
controls over manual JV preparation, approval, and review. Specifically, of the 415
manual JVs reviewed, 16 (with entries totaling more than $571 million) had one or more
internal control deficiencies.

The General Ledger Accounting and Financial Reporting System includes a process for
entering manual accounting journal entries into the GL. The manual JV process begins
with the need to capture financial information in the GL or the occurrence of a business
activity.

CFR personnel prepare both manual recurring9 and non-recurring10 journal entries.
CFR uses Postal Service Form 824, Journal Entry Form, to track all manual JVs
processed through the JEV application. The JEV forms are in an Excel spreadsheet
format; include a description of the journal entry, preparer, JV number, dollar amount,
and date prepared; and are entered into the GL. For FY 2007, CFR prepared 578
manual JVs with entries totaling approximately $48 billion. For FY 2008, CFR prepared
588 manual JVs with entries totaling approximately $41.4 billion.

Postal Service policy covers accounting and reporting practices and states accounting
practices at headquarters are expected to be consistent with general fundamental
internal control principles, including proper explanation, support, and approval of JVs.
However, we found a manager and team lead accountant prepared eight JVs approved
by their staff members. For example, in one instance, the CFR manager prepared a JV
that was then approved by a manager reporting directly to him. In addition, two JVs did
not have sufficient documentation to support them.

Handbook F-1 covers accounting and reporting practices and Handbook F-20, General
Ledger Accounting and Financial Reporting System, Chapters 2 and 5, covers manual
JV processing. In addition, CFR supplements these handbooks with additional informal
procedures as follows.

      1. Personnel prepare JVs with documentation justifying the entry and supporting
         the finance numbers, account numbers, and dollar amounts. The preparer
         initials the JV form as “Prepared By.”

      2. A different individual reviews and approves the JV and accompanying
         documentation. This individual initials the JV form as “Approved By.”



9
 Recurring journal entries have the same accounts and/or amounts and recur from month to month.
10
  Non-recurring journal entries are initiated by CFR to reverse journals, month-end accruals, and reclassification
entries.




                                                          9
Fiscal Year 2008 Postal Service Financial                           FT-AR-09-007
 Statements Audit – Washington, D.C., Headquarters


     3. An individual then determines whether the JV has proper approval, enters it into
        the JEV, saves the data entry, and initials the JV form as “Entered By.”

     4. An individual different from the one entering the JV into the JEV reviews the
        data entry and, if approved, initials the JV form as “Reviewed By.”

     5. Upon approval, the individual that entered the JV into the JEV electronically
        submits the JEV data to a senior accountant for final review and preparation for
        posting into the GL. The individual then writes the letter “S” on the JV.

     6. The team lead accountant performs an overall final review of the JV and its
        input into JEV. Upon completion, the team lead accountant moves the JEV
        entry for posting into the GL. The team lead accountant then writes “M” on the
        JV.

     7. Eagan IT/ASC personnel post the JEV entry into the GL.

     8. The individual from headquarters (step 3 above) reviews the GL the next day to
        verify the JV entries were posted to the GL and are accurately reflected in
        ADM. The individual documents this verification with a notation of “POSTED”
        on the JV.

The Postal Accountability and Enhancement Act, passed in December 2006, requires
the Postal Service to comply with applicable portions of the Sarbanes-Oxley Act by
2010. Accordingly, the Postal Service must be able to detect and prevent
misstatements timely and be assured that internal control procedures are designed and
maintained to ensure material information is disclosed. When internal controls over
manual JV processing are not in place, there is increased risk of misstated financial
information in the GL.




                                                     10
Fiscal Year 2008 Postal Service Financial                 FT-AR-09-007
 Statements Audit – Washington, D.C., Headquarters


                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                     11
Fiscal Year 2008 Postal Service Financial                 FT-AR-09-007
 Statements Audit – Washington, D.C., Headquarters




                                                     12
